HHS/OIG, Audit -"Review of Wyoming's Accounts Receivable
System for Medicaid Provider Overpayments,"(A-07-04-03056)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Wyoming's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-04-03056)
October 14, 2004
Complete
Text of Report is available in PDF format (443 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the State agency reported Medicaid provider overpayments according
to Federal regulations.  We found that the State agency's policies and procedures were not sufficient to ensure the
timely reporting of all overpayments.  As a result, the State agency delayed returning the Federal share of identified
overpayments totaling $211,667.  Of that amount, the State agency had not yet reported or returned $97,938 to the
Federal government as of February 12, 2004.  We recommended that the State Agency ensure that the Federal share of
overpayments totaling $97,938 is returned to the Federal government as soon as possible and strengthen policies and procedures
to ensure all overpayments are reported in accordance with Federal regulations.  The State agency generally concurred
with our findings and recommendations and initiated actions to address those issues.